                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A12090061                                                                         Page 1 of 1



                   We learned that animal care violations occurred at an institution. 1 Our review of the
          matter determined that the violations do not relate to any NSF awards. Although this did not
          relate to any specific NSF awards, the violation is being investigated by the appropriate entity.
          Accordingly, this matter is closed with no further action taken.




NSF OIG Form 2 ( 11 /02)
